OIG Audit Report

The United States Marshals Service Intergovernmental Service Agreement for Detention Services with the Cumberland County Jail, Portland, Maine 
Office of the Inspector General



Executive Summary


The United States Marshals  Service (USMS) assumes custody of individuals arrested by all federal agencies  and is responsible for housing and transporting prisoners from the time they  are brought into federal custody until they are either acquitted or sentenced.  Each day, the USMS houses approximately 53,000 detainees.  Typically, the USMS detains about 75 percent  of its prisoners in state and local detention facilities; the remainder are  housed in Federal Bureau of Prisons facilities. Title 18, United States Code §  4013 (a), authorizes the Attorney General to make payments from the Federal Prisoner  Detention Appropriation for the necessary clothing, medical care, guard  services, housing, care, and security of prisoners held in the custody of the  USMS pursuant to federal law, under agreements with state or local units of  government. To meet its detention requirements and to acquire jail space, the  USMS executes Intergovernmental Service Agreements (IGA) with approximately  1,300 state and local governments.
An IGA is a formal written  agreement between the USMS and a state or local government to house federal  prisoners at a fixed per diem rate, or jail day rate. The USMS bases the jail  day rates it pays to house federal prisoners on the actual and allowable costs  for the same level of service provided to state or local prisoners in a  specific facility. The USMS requires the governmental unit to: (1) establish  and maintain accounting systems and financial records that accurately account  for the funds awarded, (2) comply with federal  financial management standards, and (3) notify the USMS of any significant  changes to its facilities.  To request a  jail day rate or an increase in an existing jail day rate, the USMS requires  local governments to complete and submit a Form USM-243, Cost Sheet for  Detention Services to the local USMS office. The local office forwards the  cost sheet to the USMS Prisoner Services Division for review, evaluation, and  approval.
To assist state and local governments with the completion  of the Form USM-243, the USMS publishes the Cost Sheet for Detention  Services – Form USM-243 Instructions. The cost sheet instructions establish  guidelines for determining: (1) if the direct and indirect costs are allowable  and allocable to the IGA, (2) how prisoner population data is entered into the  cost sheet, and (3) what adjustments to allowable federal expenditures may be  necessary based on the local operating costs of the facility.
The  Office of the Inspector General (OIG), Audit Division, completed this audit of  the IGA between the USMS and the Cumberland County Jail (CCJ), located in Cumberland  County, Maine.  Under the terms of the  primary IGA, effective in 1997, the CCJ provided housing, safekeeping, and  subsistence for adult male and female federal prisoners and was reimbursed at a  daily per diem, or jail day rate for each federal prisoner incarcerated in the  county’s jail.1  The original IGA provided  a jail day rate of $81.97, and was modified three times to increase the jail  day rate as follows: (1) in January 1999 to $82.96, (2) in June 2003 to $92.83,  and (3) in July 2003 to $103.96.  The  current IGA is effective until June 30, 2006.2 
The objectives of our audit  were to determine if: (1) the jail day rate was current, complete, and  accurate, (2) the costs used to support the detention and care of federal  inmates were allowable, allocable, and reasonable under OMB Circular A-87, Cost  Principles for State, Local, and Indian Tribal Governments (OMB A-87), and  (3) the total dollars billed to the USMS were accurate.
Our audit period covered 2  years, the period from January 1, 2003, through December 31, 2004.  The CCJ billed the USMS a total of $6,412,702  to house federal prisoners during these 2 years.  Based on our analysis of the jail day rates  and supporting costs for this period, we found that the jail day rates paid to  the CCJ from January 2003 through June 2003 are supported. However, we found  that the jail day rate in effect from July 2003 through December 2004 was not  fully supported. Because the CCJ experienced a significant increase in its  inmate population between FY 2002 and FY 2004 (26.2 percent), the jail day rate  from July 2003 to December 2004 was overstated.   We concluded the USMS overpaid the CCJ by $202,354 during the 2 years we  audited ($137,683 in FY 2003 and $64,671 in FY 2004). Because the USMS bases  the jail day rates it pays on the annual number of jail days divided into the  annual operating costs of the jail, the sharp increase in the inmate population  during the 2 years we audited caused a significant decrease in the CCJ’s jail  day rates. We describe our  methodology for determining the impact of the increase in  the number of jail days on the jail day rate later in this report. 
We  discussed the results of our audit with a CCJ official, who generally agreed  with our findings and recommendations.


 

Footnotes

A jail day is the equivalent of one person incarcerated  for one day and begins on the date of arrival but does not include the date of  departure. The total number of jail days per year is divided into the annual  operating cost of the jail to determine the jail day rate.
The IGA also includes limited funding  for guard services to support federal prisoners treated at local  hospitals.  We discuss this funding in  Appendix I.





 




Return to OIG Home Page